WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Kenneth Sealey, et al.

19-680
J. Duane Gilliam, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
❑ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B r member.
11 0

Signature
Date.

12/16/2019

C
Catherine E. Stetson
E Mr. El Ms. E Mrs.
Hogan Lovells US LLP
Firm
555 Thirteenth Street, NW
Address

(Type or print) Name

City & State
Phone

El Miss

Washington, D.C.

(202) 637-5600

Zip
Email

20004

cate.stetson@hoganlovells.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: James R. Morgan, Jr. (Counsel for Petitioners)

